          Review of Separation Allowance Disqualification Periods
                   Report No. 01-15, September 20, 2001

                                INTRODUCTION

This report presents the results of an Office of Inspector General (OIG) review of
the Railroad Retirement Board’s (RRB) processing of separation allowance
information to prevent and detect overpayments.


BACKGROUND

The RRB, an independent agency in the executive branch of the Federal
government, administers retirement-survivor and unemployment-sickness benefit
programs for railroad workers and their families. The RRB paid net
unemployment and sickness benefits totaling $79 million to about 35,000
claimants in fiscal year 2000.

A separation allowance is a payment by an employer to an employee in
connection with the severing of the employment relationship. The Railroad
Unemployment Insurance Act (RUIA) disqualifies employees who receive
separation allowances from receiving unemployment and sickness insurance
benefits. This disqualification lasts approximately as long as the employee would
have worked to earn the amount of the separation allowance. A formula is used
to determine the separation allowance disqualification period and includes the
amount of the separation allowance, the last daily rate of pay, and the number of
days in a normal workweek.

RRB regulations (20 CFR 209.14) require employers to notify the RRB when
separation allowances are paid. They are required to submit separation
allowance information by the last day of the month following the end of the
quarter in which payments were made. Employers are required to report
separation allowances on Form BA-9, “Report of Separation Allowance or
Severance Pay.” As an alternative, employers may report separation allowances
by electronic media (magnetic tape or computer diskette).

When an employee requests unemployment or sickness insurance benefits, the
employee is required to report receipt of a separation allowance on his or her
application and subsequent claim forms. RRB field office and headquarters
personnel process these applications and claims forms and ensure payment stop
codes or separation allowance disqualification periods are established on
employee records.

The RRB uses payment stop codes to prevent the payment of unemployment
and sickness insurance benefits until RRB field office or headquarters personnel
obtain separation allowance and employment information from the employer. The
RRB uses the separation allowance and employment information to calculate
and establish disqualification periods in its computer systems. Once a separation
allowance disqualification period is established, a RRB computer program scans
RUIA benefit payment records to identify any payments made for days included
in the disqualification period. Any identified payments are referred for further
analysis to verify the overpayment of benefits.

Prior to paying RUIA benefits, the RRB notifies employers of their employees’
claims for benefits. This notification allows employers an opportunity to verify the
accuracy of the claims. Employers can challenge the RRB’s payment of RUIA
benefits in instances in which employees received separation allowances.

The RRB’s Strategic Plan (2000 – 2005) provides that the RRB will provide
excellent customer service. Its first objective under that goal is to optimize
accuracy in providing benefits. This audit addressed that key area of agency
performance.




                                         1

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of the review was to determine whether controls are sufficient to
prevent and detect erroneous RUIA benefit payments.

To accomplish the objective, the OIG:

• reviewed applicable sections of the RUIA and other regulations;
•	 reviewed applicable RRB procedures for reporting and processing separation
   allowance information and calculating the disqualification period;
•	 reviewed and assessed the adequacy of controls relating to the identification
   of separation allowances, gathering of separation allowance details,
   calculation of separation allowance disqualification periods and identification
   of erroneous payments;
• interviewed RRB personnel;
•	 reviewed a judgmental sample of all 41 individuals reported on 3 BA-9 forms
   selected from Employer Service and Training Center files to determine if
   payment stop codes were input into the Railroad Unemployment Claims
   System. Auditors also determined whether RUIA benefits were paid for
   periods which should have been covered by a separation allowance
   disqualification period;
•	 reviewed a random sample of 8 cases to verify the accuracy of the
   disqualification periods calculated by the RRB’s computer program; and
•	 reviewed a random sample of 8 overpayments, selected from the RRB’s
   accounts receivable system, caused by payment of RUIA benefits during
   disqualification periods to determine causes of the overpayments.

Auditors reviewed controls and procedures in effect for separation allowance
disqualification periods in calendar year 2000 as applicable to the scope of the
review. This review included identifying and assessing controls over the various
event cycles. However, auditors did not review general and application controls
for the various automated data processing applications and systems for
processing separation allowance information and calculating disqualification
periods as this was outside the scope of this review.

This review was performed in accordance with generally accepted government
auditing standards appropriate for the objectives described above. The
fieldwork was performed at the RRB headquarters office in Chicago, Illinois from
May 2000 through July 2001.




                                        2

                             RESULTS OF REVIEW


The RRB has effective controls for identifying separation allowances. Once
separation allowance data is entered into RRB computer systems, computer
applications are effective in accurately calculating separation allowance
disqualification periods and in preventing and detecting erroneous RUIA benefit
payments. The RRB can, however, improve controls to ensure that separation
allowance data is input into RRB computer systems and disqualification periods
are established in a timely manner. Current processing could allow some
benefits to be erroneously paid and overpayments to go undetected.

Control weaknesses in establishing separation allowance disqualification periods
and a recommendation for improvement are discussed in the following section of
the report.


PROCESSING OF BA-9 INFORMATION

The RRB currently follows a policy of disregarding BA-9 separation allowance
information for the purpose of establishing separation allowance disqualification
periods. Although the RRB collects and processes this information, it does not
use it to establish separation allowance disqualification periods.

The BA-9 information serves more than one purpose. The BA-9 form gathers
information on separation allowance payments so that the RRB can calculate the
separation allowance lump sump amount (SALSA). The RRB pays this amount
to employees who received separation allowances after 1984. The SALSA
amount is a refund of the portion of the separation allowance that was taxed but
not used to produce regular retirement service credits. Up until the mid-1990’s
the RRB also used the BA-9 information to establish separation allowance
disqualification periods.

Railroad employers may file separation allowance information on paper BA-9
forms or by electronic media. RRB personnel input the information from the
paper BA-9 forms into a computer file. RRB computer programmers merge this
data with separation allowance information reported via electronic media. The
programmers then separate and store the data for use in calculating SALSA
payments and establishing separation allowance disqualification periods.
However, the RRB does not use the computer data to establish separation
allowance disqualification periods.

RRB management had used the computer data to establish separation
allowances, but determined that this information generated too many referrals for
manual follow-up. As a result, sometime during the mid-1990’s, RRB




                                        3

management decided to quit using the BA-9 information for the purpose of
establishing separation allowance disqualification periods.

The RRB does not have data reflecting the number of additional disqualification
periods that would be established and overpayments that would be identified if
the RRB processed BA-9 separation allowance information to establish
disqualification periods. A match of BA-9 computer data and RUIA computer
systems would identify the extent of unidentified overpayments and separation
allowance disqualification periods that have not been established.

The RRB’s primary control for establishing separation allowance disqualification
periods is self-reporting of separation allowances when applicants claim sickness
and unemployment benefits. Although the majority of applicants do report receipt
of separation allowances on sickness and unemployment benefit applications
and claim forms, some applicants either inadvertently or intentionally fail to report
receipt of separation allowances. The review of a sample of 8 overpayment
cases showed that the applicant did not report the receipt of a separation
allowance on 6 of the initial applications for benefits. In three of these 6 cases,
the applicant subsequently notified the RRB of the receipt of a separation
allowance.

The RRB also relies on the prepayment verification process to identify receipt of
separation allowances by unemployment and sickness benefit applicants. Under
this process the RRB notifies employers of their employees’ claims for benefits.
This notification allows employers an opportunity to verify the accuracy of the
claims. Employers can provide information to the RRB that can prevent or detect
the payment of RUIA benefits in instances in which employees received
separation allowances. However, the responsible program manager indicated
that this is not a significant method for identifying the receipt of separation
allowances.

As of June 30, 2000, the RRB’s accounts receivable system contained 37
receivables that were related to separation allowances. These receivables, with
an outstanding balance of approximately $50,000, involved benefit payments
made for days that were subsequently determined to be part of separation
allowance disqualification periods. Although the RRB has developed controls to
prevent and detect the overpayment of benefits relating to the receipt of
separation allowances, the OIG believes that additional overpayments can be
prevented or detected through the use of BA-9 information.

RRB personnel already input paper BA-9 forms into a computer file, merge this
data with BA-9 separation allowance information filed by electronic media, and
store this computer data. However the data is not used to establish
disqualification periods. Office of Program personnel question the need for
processing BA-9 separation allowance data to establish separation allowance




                                         4

disqualification periods and to identify benefit overpayments. They do not
believe that this control is cost beneficial. However, they do not have quantified
information to support their belief.

Recommendation:

The Office of Programs should use BA-9 separation allowance data to establish
separation allowance disqualification periods or provide quantified information to
justify not using this data.

Management’s Response:

Management concurred with this recommendation and will change programs to
use BA-9 separation allowance data.




                                         5

